SEPTEMBER 18, 2008
  AUDIT REPORT




                                                      OFFICE OF AUDITS




        COST ESTIMATES USED TO SUPPORT THE
       FISCAL YEAR 2008 BUDGET REQUEST FOR
          NASA’S CONSTELLATION PROGRAM
       COULD HAVE BEEN BETTER DOCUMENTED




                                           OFFICE OF INSPECTOR GENERAL




                                                      National Aeronautics and
                                                          Space Administration




  REPORT NO. IG-08-030 (ASSIGNMENT NO. A-07-017-00)
Final report released by:

   signed
Evelyn R. Klemstine
Assistant Inspector General for Auditing




Acronyms

CCCC         Commercial Cargo Crew Capability
CEV          Crew Exploration Vehicle
CLV          Crew Launch Vehicle
CxP          Constellation Program
DDT&E        Design, Development, Test, and Evaluation
FMR          Financial Management Requirements
FTE          Full-Time Equivalent
GAO          Government Accountability Office
NPR          NASA Procedural Requirements
OCFO         Office of the Chief Financial Officer
OIG          Office of Inspector General
OMB          Office of Management and Budget
PA&E         Program Analysis and Evaluation
PPBE         Planning, Programming, Budgeting, and Execution
WBS          Work Breakdown Structures
WYE          Work-Year Equivalent


                                                               REPORT NO. IG-08-030
SEPTEMBER 18, 2008




                                                                                   OVERVIEW

      COST ESTIMATES USED TO SUPPORT THE FISCAL YEAR 2008
       BUDGET REQUEST FOR NASA’S CONSTELLATION PROGRAM
              COULD HAVE BEEN BETTER DOCUMENTED

                                                                                     The Issue

  The NASA Office of Inspector General (OIG) conducted this audit to determine whether
  the fiscal year (FY) 2008 budget for the Constellation Program (CxP) was prepared in
  accordance with Office of Management and Budget (OMB) and NASA policy and
  whether the CxP budget request was supported by well-documented cost estimates. We
  focused our review on the five major CxP projects: the Crew Launch Vehicle, Crew
  Exploration Vehicle, Ground Operations, Commercial Crew Cargo Capability, and
  Mission Operations. The Commercial Crew Cargo Capability is considered a project
  under CxP in NASA’s 2008 budget request and in this report; however, for program
  management purposes, it is its own program and is not a project under CxP. The CxP
  projects are intended to send a new generation of explorers to the Moon, Mars, and
  beyond. The project mission for the Crew Launch Vehicle (Ares I) is to deliver a safe,
  reliable launch system for the Crew Exploration Vehicle that will take astronauts to the
  International Space Station and then to the Moon by 2020. Reliable cost estimates can
  help ensure that budget requests are adequate to meet project and program milestones and
  goals.

  NASA’s FY 2008 budget request 1 totaled $17.3 billion and included $3.1 billion
  (17.7 percent) for CxP. Budget requests for the five major CxP projects totaled
  $2.8 billion, which included $2.3 billion in direct costs. Our review covered $1.1 billion
  of those direct cost estimates. Details of the audit’s scope and methodology are in
  Appendix A.

                                                                                            Results

  NASA could improve its budgeting process by providing additional guidance to ensure
  that budget requests are supported by well-documented cost estimates. We found that
  while the CxP project managers had supporting documentation for the $1.1 billion of the
  direct cost estimates that we reviewed, the majority was at the summary level and not
  sufficiently detailed. Specifically, CxP project personnel provided summary-level

  1
      http://www1.nasa.gov/pdf/168652main NASA FY08 Budget Request.pdf, also available at
      http://www.nasa.gov/news/budget/FY2008.html; accessed August 12, 2008.



REPORT NO. IG-08-030
                                                                                         OVERVIEW



     documentation for $914.6 million and more detailed documentation for $164.4 million.
     Although the summary-level documentation met Agency requirements for documenting
     budget requests and provided insight into the process used to estimate the direct costs, it
     did not include detailed documentation, such as the source data, calculations, and
     explanations, that would facilitate reproducing and independently evaluating the
     estimate.

     For example, project personnel for one of the five projects, Commercial Cargo Crew
     Capability, provided limited supporting documentation for that project’s FY 2008 budget
     request of $193 million in direct costs. Project personnel stated that they used market
     research and vendor quotes to develop the cost estimates that supported the budget
     request and provided summary-level documentation that illustrated various cost scenarios
     in a PowerPoint presentation. However, the summary-level data did not include detailed
     evidence to show how the cost estimates were derived by market research, company
     responses, or vendor quotes.

     A reasonable and defensible budget request should be supported and documented by
     sound cost estimates. OMB requires agencies to collect, identify, and analyze data for
     cost estimates; document cost estimates; and explain the cost estimating process used so
     that the estimate can be reproduced, allowing the quality of the estimate to be
     independently evaluated.

     NASA requirements for formulating, approving, implementing, and evaluating programs
     and projects requires cost estimates to be consistent with guidance in NASA’s “Cost
     Estimating Handbook,” 2004. The Handbook provides useful information to assist the
     NASA community in the development of reliable, comprehensive, defensible, and well-
     documented cost estimates, stating that documentation for the estimates should provide
     sufficient information about how the estimate was prepared to allow an independent
     analyst to reproduce the estimate. However, the Handbook does not explain what
     constitutes sufficient information.

     Given the absence of detailed guidance on what constitutes sufficient documentation, we
     evaluated the CxP budget request against standards recommended by the Government
     Accountability Office (GAO) in its July 2007 exposure draft, “Cost Assessment Guide:
     Best Practices for Estimating and Managing Program Costs.” Although not available at
     the time the FY 2008 CxP budget request was submitted, and still in draft format as of
     August 4, 2008, the guiding principles for preparing fully documented cost estimates
     contained in the GAO Cost Guide are a compilation of best practices from across the
     Federal Government that can serve as a benchmark.

     We found that the CxP project managers’ documentation did not include the level of
     detail called for in either NASA’s Handbook or the GAO Cost Guide. With respect to
     the Handbook, the documentation provided by the CxP project managers did not provide
     sufficient information to allow an independent analyst to reproduce the estimates. The
     GAO Cost Guide states that the documentation should include source data and


ii                                                                           REPORT NO. IG-08-030
OVERVIEW



  significance, clearly detailed calculations and results, and explanations of why particular
  methods and references were chosen. The Guide also states that the data in a well-
  documented cost estimate must be traceable to its source.

  NASA could improve its budgeting process by adopting the standards recommended by
  the GAO Cost Guide and ensuring that budget requests incorporate cost estimates based
  on historical or actual cost data, vendor quotes, and spreadsheets with detailed
  calculations prepared by subject matter experts showing how they arrived at the cost
  estimates. Also, given that NASA programs and projects have historically experienced
  cost overruns, cost estimates with detailed, empirical data that explain the rationale for
  decisions could help minimize the risk of cost overruns by providing additional assurance
  that budget requests are adequate to achieve program and project goals.

                                                                Management Action

  We recommended that the Associate Administrator for Program Analysis and Evaluation
  incorporate into NASA’s Cost Estimating Handbook appropriate best practices identified
  in the exposure draft of the GAO Cost Guide and require personnel to document and
  retain cost estimates used to support budget requests in a manner that explicitly identifies
  the primary methods, calculations, results, rationales or assumptions, and source data
  used to generate each estimate. We also recommended that the Constellation Program
  Manager require that budget requests be prepared using cost estimates that are
  sufficiently documented as to allow an independent cost analyst to reproduce the
  estimate.

  In response to a draft of this report issued August 12, 2008, the Associate Administrator
  for Program Analysis and Evaluation nonconcurred with our first recommendation but
  stated that NASA incorporated the best practices from the exposure draft of the GAO
  Cost Guide into its 2008 Cost Estimating Handbook. By incorporating the GAO
  standards into the Handbook, management’s actions are responsive to the
  recommendation.

  The Associate Administrator for Program Analysis and Evaluation concurred with our
  second recommendation and stated that CxP has been and will continue to apply the
  techniques and best practices outlined in NASA’s Cost Estimating Handbook. The
  techniques and best practices are in concert with the GAO Cost Guide. We consider
  management’s comments to be responsive. Both recommendations will be closed upon
  verification of management’s actions.




REPORT NO. IG-08-030                                                                             iii
SEPTEMBER 18, 2008




                                                        CONTENTS

  INTRODUCTION
      Background __________________________________________ 1
      Objectives ___________________________________________ 4

  RESULTS
      Budget Requests Could Be Improved by Using Well-Documented
        Cost Estimates _____________________________________ 5

  APPENDIX A
      Scope and Methodology _______________________________ 15
      Review of Internal Controls _____________________________ 17
      Prior Coverage_______________________________________ 17

  APPENDIX B
      Management Comments _______________________________ 18

  APPENDIX C
      Report Distribution ___________________________________ 22




REPORT NO. IG-08-030
SEPTEMBER 18, 2008




                                                                             INTRODUCTION


Background

  Budget Process at the Program/Project Level

  Each year, the Office of Management and Budget (OMB) issues Circular No. A-11,
  “Preparation, Submission, and Execution of the Budget,” instructing Federal agencies on
  how to develop and submit their annual budgets. A reasonable budget request should be
  supported by well-documented cost estimates. OMB requires agencies to collect,
  identify, and analyze data for cost estimates; document cost estimates; and explain the
  cost estimating process used so that the estimate can be reproduced, allowing the quality
  of the estimate to be independently evaluated.

  NASA implemented the process for preparing, submitting, and executing its FY 2008
  budget in NASA Financial Management Requirements (FMR), Volume 4, “Planning,
  Programming, Budgeting, and Execution” (PPBE), July 2006. The PPBE process is a
  methodology used Agency-wide for aligning resources in a comprehensive, disciplined,
  top-down approach that focuses on translating strategy into actionable programs and
  bringing together Agency priorities and strategic outcomes within the Agency’s resource
  constraints. The PPBE process begins at the top with the Office of the Chief Financial
  Officer (OCFO) and the Office of Program Analysis and Evaluation (PA&E) preparing
  NASA’s Strategic Planning Guidance. This Guidance is a consolidated document
  containing information from NASA’s Strategic Plan, implementation plans, studies and
  assessments, and performance measures. Senior Agency officials translate the Strategic
  Planning Guidance into guidance more relevant for the program and project managers.
  The programmatic guidance details the allocation of budget control totals 2 to the
  appropriate lower levels, including programs and projects. The control totals flow down
  from Headquarters to the programs and projects, but each program or project may
  formulate its budget in any way it deems appropriate, as long as the final direct budget
  submission reflects the control total provided in the programmatic guidance.

  NASA requirements for formulating, approving, implementing, and evaluating programs
  and projects are defined in NASA Procedural Requirements (NPR) 7120.5C, “NASA
  Program and Project Management Processes and Requirements,” March 22, 2005. One
  responsibility the project manager has, as stated in the NPR, is to develop credible cost
  estimates for budget preparation. The NPR also notes that cost estimates must be
  consistent with guidance in NASA’s “Cost Estimating Handbook,” 2004. Cost
  estimating should tie costs with benefits and risks, creating causal links, which are

  2
      The maximum amount that program and project managers should use—i.e., the control amount—when
      developing their budget requests.



REPORT NO. IG-08-030                                                                                  1
                                                                                                   INTRODUCTION



    essential for decision makers who must review and approve budgets. The Handbook
    states that properly estimating costs supports the budgeting process, and in order for
    NASA to support the objectives of OMB A-11, a reasonable estimate of resources is
    required. NASA’s Handbook also provides useful information to assist the NASA
    community in the development of reliable, comprehensive, defensible, and well-
    documented cost estimates, stating that documentation for the estimates should provide
    sufficient information about how the estimate was prepared to allow an independent
    analyst to reproduce the estimate. However, the Handbook does not explain what
    constitutes sufficient information.

    In July 2007, the Government Accountability Office (GAO) issued an exposure draft of
    “Cost Assessment Guide: Best Practices for Estimating and Managing Program Costs”
    (GAO-07-1134SP). 3 The purpose of the Cost Guide is to help Federal agencies
    overcome longstanding concerns about the adequacy of documentation supporting budget
    requests and create guidance for generating reliable cost estimates in compliance with
    OMB A-11. The GAO Cost Guide provides guiding principles for Government
    managers and auditors to use as they assess the credibility of a program’s cost estimate
    for budget and decisionmaking purposes. Although agencies are not required to comply
    with the Guide, it describes generally accepted best practices for ensuring credible cost
    estimates and notes the importance of documenting cost estimates. Because a reasonable
    and supportable budget is essential to a program’s efficient and timely execution, a
    competent estimate is the key foundation of a good budget. Credible cost estimates help
    program offices effectively defend budgets to Congress and OMB. Without sufficient
    documentation to support budget requests, Federal agencies are limited in their assurance
    that requests are adequate to achieve stated goals. As GAO states in the Guide: “The
    ability to generate reliable cost estimates is a critical function . . .. Without this ability,
    agencies are at risk of experiencing cost overruns, missed deadlines, and performance
    shortfalls.”

    Constellation Program

    The Constellation Program (CxP) supports NASA’s mission to pioneer the future in
    space exploration. As described in NASA’s FY 2008 budget request, 4 CxP is responsible
    for providing the capabilities essential to this mission, to include reestablishing a
    U.S. presence on the Moon, which will enable significant national aspirations, such as
    preparing for human exploration of Mars. The FY 2008 budget request for CxP was




    3
        GAO-07-1134SP was released for comment from August 13, 2007, through July 14, 2008. The
        methodology outlined in the Cost Guide is a compilation of best practices that Federal cost estimating
        organizations use to develop and maintain reliable cost estimates throughout the life of a program.
    4
        http://www1.nasa.gov/pdf/168652main NASA FY08 Budget Request.pdf, also available at
        http://www.nasa.gov/news/budget/FY2008.html; accessed August 12, 2008.



2                                                                                         REPORT NO. IG-08-030
INTRODUCTION



  $3.1 billion, 17.7 percent of NASA’s $17.3 billion budget, divided among the following
  five projects and an “Other” category:

      •   Crew Launch Vehicle (CLV)/Ares I. The project mission is to deliver a safe,
          reliable launch system that expands America’s scientific reach through space
          exploration. The Ares I project is tasked to design, develop, test, and evaluate a
          human-rated CLV composed of a solid rocket booster and a new J-2X upper stage
          engine. Ares I will feature a lift capability of 24.5 metric tons and will launch the
          Orion spacecraft that will take astronauts to the International Space Station and
          then to the Moon by 2020.

      •   Crew Exploration Vehicle (CEV)/Orion. NASA’s next-generation piloted
          spacecraft is the Orion, which will be capable of transporting six astronauts to the
          International Space Station or four astronauts to the Moon and returning them
          safely to Earth. The combined crew and service modules will provide power, life
          support, and propulsion for rendezvous, orbit correction, and deorbit.

      •   Ground Operations. This project consists of the launch site infrastructure
          necessary to receive, inspect, assemble, integrate, test, simulate, monitor, and
          perform launch processing operations and landing/recovery of flight hardware.
          The Ground Operations project is also engaged in defining the complete
          processing system at the launch site. Characteristics of a launch site system
          include numbers of integration cells and launch pads, launch rate capability, and
          associated life-cycle costs.

      •   Commercial Cargo Crew Capability (CCCC). This project supports
          demonstration of Commercial Space Transportation Services from domestic
          companies. NASA’s Commercial Orbital Transportation Services Projects are
          designed to facilitate U.S. private industry demonstration of cargo and crew space
          transportation capabilities, with the goal of achieving reliable, cost-effective
          access to low Earth orbit. Although CCCC is considered a project under CxP in
          NASA’s 2008 budget request and in this report, for program management
          purposes, it is its own program and is not a project under CxP.

      •   Mission Operations. This project will provide all mission operation capabilities
          needed to execute Constellation missions, including the systems and
          infrastructure necessary for Constellation command and control during ascent,
          descent, and mission operation execution. Mission Operations also supports the
          interoperability of control center facilities with other control centers and test sites.

      •   Other. This category includes six smaller projects: Ares V, Program Integration,
          Exploration Communication and Navigation System, Advanced Development,
          Extra Vehicular Activity, and Advanced Projects.




REPORT NO. IG-08-030                                                                                 3
                                                                                                 INTRODUCTION



    The FY 2008 budget requests for CxP projects (see Table 1) include direct costs, indirect
    costs, 5 and pass-back adjustments. 6 For the five major projects, we reviewed the direct
    cost portion of the budget requests (see Table 2, page 8). The direct costs are estimated
    by NASA personnel, while indirect costs are determined by a formula and pass-back
    adjustments are outside of an agency’s control. Therefore, we did not review those costs.
    We also did not review the “Other” costs of $301.9 million. Therefore, only direct costs
    of the five major projects are discussed in this report. Also, because our review was not
    based on statistical sampling, our results cannot be projected.

                              Table 1. FY 2008 Budget Requests by CxP Project
                                                 (dollars in millions)

                         Project                                         Budget Request
                         CLV/Ares I                                        $1,175.2
                         CEV/Orion                                            950.8
                         Ground Operations                                    356.8
                         CCCC                                                 236.0
                         Mission Operations                                     47.4
                         Other                                                301.9
                          Total                                             $3,068.0*
                     *The total does not add up because of rounding.


Objectives

    The overall audit objective was to determine whether the Constellation Program’s
    FY 2008 budget request was prepared in accordance with OMB A-11 and NASA FMR,
    Volume 4, and was supported by well-documented cost estimates. During the course of
    our audit, we reviewed NPR 7120.5C, NASA’s Cost Estimating Handbook, and the GAO
    Cost Guide because these criteria contained requirements and guidance for supporting
    budget requests with documented cost estimates. We also reviewed internal controls as
    they related to our overall audit objective. See Appendix A for details of the audit’s
    scope and methodology, our review of internal controls, and a list of prior coverage.




    5
        Overhead, general and administrative (G&A) costs, and shared services costs.
    6
        OMB’s notification to agencies of budget, management, and policy decisions following its analysis and
        review of all agency budget submissions.



4                                                                                         REPORT NO. IG-08-030
RESULTS




                                                BUDGET REQUESTS COULD BE
                                                       IMPROVED BY USING
                                                       WELL-DOCUMENTED
                                                          COST ESTIMATES

          NASA could improve its budgeting process by providing additional guidance to
          ensure that budget requests are supported by well-documented cost estimates. We
          found that while the CxP project managers had supporting documentation for the
          $1.1 billion of direct cost estimates that we reviewed, the majority ($914.6 million)
          was at the summary level and not sufficiently detailed. Although the summary-level
          documentation, such as PowerPoint slides featuring cost overviews, met Agency
          requirements for documenting budget requests and provided insight into the process
          used to estimate the direct costs, it did not include detailed documentation, such as
          the source data, calculations, and explanations. As stated in NASA’s Handbook, the
          documentation should provide sufficient information to facilitate reproducing and
          independently evaluating the cost estimate.

          We found that the five project managers maintained minimal documentation for the
          cost estimates used to support their budget requests because the type of documents or
          the depth of related analysis needed is not specified in OMB and NASA requirements.
          Given the absence of specific guidance, we evaluated the CxP budget request against
          standards of the GAO Cost Guide. We found that the CxP project managers’
          documentation did not include the level of detail called for by GAO.

          Although the GAO Cost Guide was not available at the time the FY 2008 CxP
          budget request was submitted, NASA could improve its budgeting process by
          adopting the Guide’s recommended standards and ensuring that budget requests
          incorporate well-documented cost estimates, which could help minimize the risk of
          cost overruns by providing additional assurance that budget requests are adequate to
          achieve program and project goals.


Federal and NASA Requirements and Guidance

  Numerous requirements, policies, and guidance govern the annual budget process at
  NASA. OMB issues requirements for all Federal agencies to follow in the preparation of
  their annual budget submission to the President. NASA provides guidance for preparing
  annual budgets in its FMR, NPRs, and Cost Estimating Handbook. The GAO Cost Guide
  details best practices for Federal agencies to follow in documenting and preparing
  credible cost estimates to support budget requests and decisionmaking.

  OMB Requirement. The June 2006 edition of OMB A-11 provides requirements for
  preparing the FY 2008 budget submission. OMB A-11 instructs Federal agencies on how


REPORT NO. IG-08-030                                                                              5
                                                                                             RESULTS



    to develop and submit their annual budgets and requires agencies to collect, identify, and
    analyze data for cost estimates; document cost estimates; and explain the cost estimating
    process, allowing the quality of the estimate to be independently evaluated. Appendix 9
    of the “Capital Programming Guide,” a supplement to OMB A-11, states that program
    personnel should document cost estimates and that the documentation should explain the
    cost estimating process used and how the cost estimates were prepared so that the quality
    of the estimate can be determined. OMB requires thoroughly documented data, including
    any adjustments made, so that an audit trail is established for verification purposes.

    NASA Requirements and Guidance. NASA’s requirements and guidance are provided
    in NASA FMR, Volume 4; NPR 7120.5C; and NASA’s Cost Estimating Handbook.

    Volume 4 of the NASA FMR details the PPBE process, which was established to assist
    NASA program and project staff to implement the requirements in OMB A-11 for
    preparing, submitting, and executing budgets. The PPBE process uses a methodology for
    aligning resources in a comprehensive, disciplined, top-down approach that focuses on
    translating strategy into actionable programs and bringing together Agency priorities and
    strategic outcomes.

    NPR 7120.5C defines the management requirements for formulating, approving,
    implementing, and evaluating NASA programs and projects. Section 3.2.2.1 states that
    the project manager and the team should develop credible cost estimates for budget
    preparation. Further, this section states that good cost estimation is a critical capability
    needed to ensure the credibility of the project’s resource and financial decisionmaking
    and, in the larger view, the credibility of NASA’s financial management system. The
    NPR also states that cost estimating should be consistent with the Cost Estimating
    Handbook.

    Although NASA’s Cost Estimating Handbook does not provide actual policy guidance or
    project requirements, it provides useful information on developing credible cost
    estimates. The Handbook states that properly estimating costs supports the budgeting
    process, and in order for NASA to support the objectives of OMB A-11, a reasonable
    estimate of resources is required. Task 10 in Chapter 5, Section 5.3, “Estimate,” provides
    information on how to document cost estimates. The Handbook states that the objective
    of documenting cost estimates is to capture, in a continuous fashion, from project
    initiation through completion, the life-cycle cost. Specifically, the purpose of the
    documentation is to provide written justification for the cost estimate. The final cost
    estimate should provide sufficient detail about how the estimate was developed so that
    independent analysts—or other review team members—can reproduce the estimate. The
    Handbook also states that the means by which each part of an estimate has been derived
    must be fully explained.

    GAO Guidance. The GAO Cost Guide states that certain best practices should be
    followed if accurate and credible cost estimates are to be developed. It states that a
    reasonable and supportable budget is essential to a program’s efficient and timely


6                                                                            REPORT NO. IG-08-030
RESULTS



  execution and that a competent estimate is the key foundation of a good budget. The
  Cost Guide states that an estimate is thoroughly documented if it includes source data and
  significance, clearly detailed calculations and results, and explanations of why particular
  methods and references were chosen. The Guide also states that the data in a well-
  documented cost estimate must be traceable to its source. Well-documented cost
  estimates are considered high-quality cost estimates for several reasons. First, thorough
  documentation is essential for validating and defending a cost estimate. Second,
  documenting the estimate in detail provides enough information so that someone
  unfamiliar with the program could easily recreate or update it. Third, good
  documentation helps with analyzing changes in program costs and contributes toward the
  collection of cost data that can be used to support future estimates. Finally, a well-
  documented cost estimate is essential if an effective independent review is to ensure that
  the estimate is valid and credible. The documentation should explicitly identify the
  primary methods, calculations, results, rationales or assumptions, and source data used to
  generate each cost estimate. The Guide states that data sources should also be
  documented. Examples of data sources include basic accounting records, historical
  databases, subject matter experts, contractor estimates, cost proposals, and research
  papers.


Improving Supporting Documentation

  For the five project budgets we reviewed, the project personnel provided summary-level
  data regarding the assumptions, risks, estimating rationales, and cost estimating processes
  used for the budget requests. They did not provide source data, such as spreadsheets,
  vendor quotes, or subject matter expert calculations, to further support the cost estimates.
  Project personnel provided summary-level data for $914.6 million of the $1.1 billion
  reviewed. Project personnel stated that the documentary evidence they prepared satisfied
  Agency requirements for documenting budget requests. NASA’s guidance states that the
  documentation for the estimates should contain sufficient information for an independent
  analyst to reproduce the estimate but does not specify the types of information required
  nor the level of detail. Because of the discretion allowed by OMB A-11 and the NASA
  guidance, we evaluated the CxP budget request against standards of the GAO Cost
  Guide. By following the Guide’s best practices, NASA could improve its budgeting
  process by documenting its cost estimates with more detailed support. The detailed
  support should include the methods, calculations, and source data used to develop the
  cost estimates. By grounding cost estimates with detailed, empirical data that explains
  the rationale for estimation decisions, NASA can enhance its assurance that budget
  requests are adequate to finance the CxP and minimize the risk of project overruns.

  The projects that we reviewed used work breakdown structures (WBS)—a management
  device to define and assign program tasks—to define and organize the scope of the
  project. Therefore, we based our audit work on the WBS. We used two key criteria to
  select WBS for review: WBS with high dollar value and WBS that included a mix of
  labor, travel, and procurement costs. The amounts that we examined accounted for


REPORT NO. IG-08-030                                                                             7
                                                                                                       RESULTS



    approximately 50 percent of the $2.3 billion of direct costs estimated for the five CxP
    projects. However, because our selection was not based on statistical sampling, our
    results cannot be projected.

    Table 2 summarizes the results of our review. The direct costs estimates are from
    the projects’ budget submissions to CxP. The project managers had supporting
    documentation for all of the amounts that we reviewed, some at the summary level
    and some sufficiently detailed, as shown in Table 2.

                     Table 2. Analysis of Five CxP Projects’ FY 2008 Budget Requests
                                                    (dollars in millions)

                                         Estimate of                 Amount of
                                         Direct Costs                 Estimate      Summary    Sufficient
           Project                     Submitted to CxP              Reviewed        Support    Support

           CLV/Ares I                      $1,009.0                   $ 539.9       $539.6      $     0.3

           CEV/Orion                           815.3                        211.3    102.9          108.4

           Ground Operations                   290.4                        113.9     61.3           52.6

           CCCC                                193.0                        193.0    193.0            0

           Mission Operations                      33.6                      20.9     17.8            3.1

             Total                         $2,341.3                  $1,079.0       $914.6      $164.4


    Crew Launch Vehicle (CLV/Ares I). The CLV project’s FY 2008 budget submissions
    to CxP totaled $1 billion. Project personnel provided a breakout of the submission by
    WBS, Center, and cost element. We chose two WBS totaling $539.9 million to review
    and determine whether sufficient support existed for the cost estimates.

    Project personnel provided summary-level support for most of the $539.9 million. That
    support included a breakout of full-time equivalent (FTE) staff, work-year equivalents
    (WYEs), 7 and procurement and travel costs as well as information about their estimation
    rationale and assumptions. For $0.3 million, project personnel provided detailed source
    data (vendor quotes), but could not provide source data for the remaining $539.6 million.
    Although they stated that they based the cost estimates on historical data, they could not
    provide documentation of the actual historical data to verify their rationale.

    Cost estimates prepared to support budget requests using GAO best practices would have
    included detailed information on the specific historical costs discussed and the rationale
    for the calculations used to adjust the historical data to arrive at the estimates.


    7
        Contract staff working a full work year.



8                                                                                      REPORT NO. IG-08-030
RESULTS



  Crew Exploration Vehicle (CEV)/Orion. The CEV project’s FY 2008 budget
  submissions to CxP totaled $815.3 million, consisting of prime (contractor) and
  non-prime (in-house) cost estimates. We chose five WBS valued at $211.3 million to
  determine whether there was adequate support for the cost estimates. The prime, or
  contractor, cost estimates consisted of design, development, test, and evaluation
  (DDT&E) costs. The non-prime cost estimates consisted of DDT&E and costs for
  NASA management oversight.

  Project personnel provided sufficient support for $108.4 million of prime costs. The
  CEV is a new project in the early stages of developing cost estimates, and at the time the
  project formulated its budget request, it had not yet awarded any contracts for its prime
  costs. Therefore, to generate prime cost estimates, project personnel used the NASA Air
  Force Cost Model, a software application used by the U.S. Air Force when estimating the
  cost of new projects, a product NASA had previously used to estimate the costs for new
  projects. For CEV, the model was used to calculate costs based on data from past
  programs, such as Apollo and Gemini. CEV project personnel provided a demonstration
  of the model and the various components used to calculate the costs. For example,
  project personnel demonstrated how the model uses Shuttle subassemblies to estimate
  similar components for CEV. They provided screen shots (printouts of the computer
  screen) from the model and explained how they applied factors such as complexity,
  weight, class, and inflation to the estimates.

  Project personnel did not provide similarly detailed support for $102.9 million of non-
  prime costs. Project personnel provided summary-level support; which included
  PowerPoint presentations showing content descriptions, estimating rationale, and
  assumptions; however, they did not provide detailed information showing the
  calculations used to arrive at the cost estimates. Although the summary-level data
  provided background information on the estimating process, the source data behind the
  estimates lacked detailed evidence. The CEV project office based the majority of the
  non-prime cost estimates on the professional opinion of subject matter experts but did not
  document the rationale for their decisions. For instance, we requested the source data to
  support the estimated number of FTEs for one particular WBS. Project personnel stated
  that subject matter experts derived the estimates based on prior experience from other
  projects. However, the subject matter experts did not document how the experience
  related to this project or how they used the prior history to calculate the estimates.

  Cost estimates prepared to support budget requests using GAO best practices would have
  included documentation such as spreadsheets and calculations from the subject matter
  experts that linked their previous experience with the current cost estimates.

  Ground Operations. The FY 2008 budget submissions to CxP for Ground Operations
  totaled $290.4 million. We requested support for $113.9 million, which included
  $52.6 million of material costs for the Mobile Launch Platform and $36.7 million of
  material costs for the Vehicle Assembly Building High Bay 3 area. We also requested
  support for $24.6 million of labor costs consisting of 66 FTEs and 105 WYE positions.


REPORT NO. IG-08-030                                                                           9
                                                                                          RESULTS



     The project personnel provided sufficient support for the Mobile Launch Platform
     material budget of $52.6 million. The support consisted of schedules, assumptions, and
     spreadsheets capturing the calculations used to derive the estimated costs.

     Project personnel provided summary-level support for the remaining $61.3 million of the
     cost estimates ($36.7 million for Vehicle Assembly Building material costs and
     $24.6 million for labor costs). For the $36.7 million, project personnel provided a
     summary-level breakdown for selected budget items and stated that they had more
     detailed documentation; however, they were unable to provide further detailed
     documentation or source data beyond the summary-level breakdown. For the
     $24.6 million, project personnel provided some support for $15.7 million; however, the
     support they provided was limited. We could not trace the labor costs detailed in the
     spreadsheets back to the budget submission. Project personnel explained that the
     differences resulted from reducing the number of FTEs in the initial estimates; however,
     no rationale or calculations were provided as documentation for the reduction. Project
     personnel also did not provide any supporting documentation for the remaining
     $8.9 million of labor costs. Consequently, we considered the support for the
     $24.6 million of labor costs of limited benefit.

     Cost estimates prepared to support budget requests using GAO best practices would have
     included source documentation such as historical cost data or vendor quotes for the
     material costs and spreadsheets detailing the rationale and calculations for the reductions
     in labor costs.

     Commercial Cargo Crew Capability (CCCC). The CCCC project’s FY 2008 budget
     submissions to CxP totaled $193 million. We reviewed the entire amount because the
     project personnel did not have the budget broken out by WBS. Project personnel
     verbally explained that the cost estimates included procurement, travel, and labor costs.

     Project personnel provided limited supporting documentation for the $193 million.
     Specifically, project personnel explained that they derived the cost estimates by
     performing market research and soliciting vendor quotes from various companies by
     using Requests for Information. Project personnel provided summary-level
     documentation that illustrated various cost scenarios in a PowerPoint presentation. The
     summary-level data did not include detailed evidence to show how the estimates were
     derived by market research, company responses, or vendor quotes.

     Cost estimates prepared to support budget requests using GAO best practices would have
     included source documentation to show all parameters, assumptions, descriptions,
     methods, and calculations used to develop a cost estimate, such as company responses
     and vendor quotes.

     Mission Operations. The FY 2008 budget submissions to CxP for Mission Operations
     totaled $33.6 million. We chose three WBS from the budget submission valued at
     $20.9 million to determine whether sufficient support existed for the cost estimates.


10                                                                          REPORT NO. IG-08-030
RESULTS



  Project personnel provided sufficient supporting documentation for $3.1 million. The
  documentation included a description of the task/function requirements, the estimating
  rationale used, and the possible impact of a funding reduction. Project personnel also
  provided spreadsheets detailing the calculations of the estimates.

  Project personnel provided some support for the remaining $17.8 million. They verbally
  explained the rationale for the costs; however, they did not document the calculations
  used to arrive at the cost estimates. For example, we reviewed the estimates for a
  training simulator system engineering team that would aid in developing the architecture,
  requirements, and acquisition planning for the Mission Control Center. Project personnel
  could not provide details or calculations to show how they derived the number of staff
  estimated for the team. Subject matter experts derived the estimates based on their
  professional opinion; however, they did not document the rationale or calculations used.

  Cost estimates prepared to support budget requests using GAO best practices would have
  included source documentation such as spreadsheets and subject matter expert
  calculations showing how they derived the estimates.


Benefit of Improved Budget Support

  Cost estimating is an integral part of the Federal budget preparation process, and support
  for the cost estimates needs to be sufficiently detailed to ensure the reliability of the
  estimates. In Senate Report 110-397, “Departments of Commerce and Justice, Science,
  and Related Agencies Appropriations Bill, 2009,” the Senate Appropriations Committee
  expressed its concern about NASA’s documentation, stating:

          The Committee continues to be disappointed in the lack of detail provided in NASA’s
          fiscal year 2009 congressional budget justification document. Budget justifications
          are critical to the Committee’s ability to make informed decisions concerning the
          administration’s funding requests and must be submitted in a format with the greatest
          level of detail possible. NASA has made an incremental change in providing
          additional details in their budget justification, but the agency has not complied fully
          with the direction in Public Law 110-161 which specifically asked for funding levels
          by directorate, theme, program, project, and activity. NASA has yet to disclose such
          data in its budget material provided to the Committee as prescribed in the law, and
          the Committee insists that NASA comply with the law in future budget submissions.

  Supporting budget requests with cost estimates based on actual and historical evidence
  could help minimize the risk of cost overruns by providing additional assurance that
  budget requests are adequate to achieve program and project goals. Similarly, historical
  cost data provide a baseline for estimating future costs and budget modifications.
  Without sufficient documentation of source data used for cost estimates, managers cannot
  determine whether budget requests are reasonable to support the program or project nor
  can they be assured that they are safeguarding the public’s interests and avoiding project
  overspending. NASA programs and projects have historically experienced cost overruns.
  NASA’s FY 2009 budget request reported cost overruns, as required by the NASA


REPORT NO. IG-08-030                                                                                11
                                                                                           RESULTS



     Authorization Act of 2005, showing that 4 out of 12 new NASA programs are over
     budget by 15 percent or more. Improved cost estimates could reduce NASA’s risk of
     cost overruns, missed deadlines, and performance shortfalls.

     NPR 7120.5C requires cost estimates to be consistent with guidance in NASA’s
     Handbook, and the Handbook provides useful information to assist the NASA
     community in the development of reliable, comprehensive, defensible, and well-
     documented cost estimates. The Handbook states that documentation for the estimates
     should provide sufficient information about how the estimate was prepared to allow an
     independent analyst to reproduce the estimate, but the Handbook does not explain what
     constitutes sufficient information.


Recommendations, Management’s Response, and Evaluation of
  Management’s Response

Recommendation 1. The Associate Administrator for Program Analysis and Evaluation
should incorporate into NASA’s Cost Estimating Handbook appropriate best practices
identified in the exposure draft of the GAO Cost Guide and require personnel to document
and retain cost estimates used to support budget requests in a manner that explicitly
identifies the primary methods, calculations, results, rationales or assumptions, and source
data used to generate each estimate.

     Management’s Response. The Associate Administrator for Program Analysis and
     Evaluation nonconcurred with our recommendation. However, NASA has included the
     proposed exposure draft GAO Cost Guide standards into the Agency’s 2008 Cost
     Estimating Handbook. The Associate Administrator stated that the proposed standards in
     the GAO Cost Guide apply to improvement of point-in-time estimates but are not directly
     pertinent to the documentation of annual budget development. While properly
     documented cost estimates are a key component of the process of budget formulation,
     cost estimates are only one of a number of inputs that are evaluated in forming a program
     budget. The budgeting process cannot be considered as a point-in-time exercise in
     optimization; rather, it is updated every year, comparing the most recent cost estimates
     with available resources and determining the best plan given the most recent information.
     This underscores the limitations of cost estimates assessed at a single point in time; early
     in development, estimates are based on immature program requirements and uncertain
     budget availability. The relevant guidance to assess CxP’s FY 2008 budget was
     embodied in OMB A-11, the FY 2008 Strategic Planning Guidance, and the
     Programmatic Resource Guidance. The Associate Administrator further stated that
     NASA project and program cost estimates are routinely independently evaluated by
     Standing Review Boards and reconciled by senior management as part of the process
     required by NPR 7120.5D, “NASA Space Flight Program and Project Requirements,”
     March 5, 2007.




12                                                                          REPORT NO. IG-08-030
RESULTS



   Evaluation of Management’s Response. The Associate Administrator’s comments are
   responsive because the GAO standards have been incorporated into the 2008 Cost
   Estimating Handbook. However, we take exception with NASA’s characterization of the
   GAO Cost Guide as “not directly pertinent to the documentation of annual budget
   development.” We believe the standards set forth in the GAO Cost Guide provide
   guidance on documenting cost estimates and, if followed, would enhance the credibility
   of NASA’s cost estimates used to support budget requests. We acknowledge that cost
   estimation is a process that serves multiple purposes. The exposure draft of the GAO
   Cost Guide states that one of the main purposes of cost estimates is to support the budget
   process by providing estimates of funding required to efficiently execute a program.
   Cost estimates are necessary for Government programs for many reasons: supporting
   decisions about whether to fund one program over another, developing annual budget
   requests, and evaluating resource requirements at key decision points. Moreover, having
   a realistic estimate of projected costs makes for effective resource allocation, and it
   increases the probability of a program’s success. The recommendation is resolved and
   will be closed upon verification of management’s actions.

Recommendation 2. The Constellation Program Manager should require that budget
requests be prepared using cost estimates that are sufficiently documented as to allow an
independent cost analyst to reproduce the estimate.

   Management’s Response. The Associate Administrator of Program Analysis and
   Evaluation concurred, stating that CxP continues to be committed to producing high
   quality cost estimates for managing its program and projects. NASA has developed
   several initiatives to improve cost estimating and management within the Agency, one
   example is the NASA Cost Estimating Handbook. The Handbook describes cost
   estimating as it should be applied to NASA projects and provides information on cost
   estimating and analysis practices. CxP has been and will continue to apply the
   techniques and best practices outlined in the NASA Cost Estimating Handbook. The
   techniques and best practices are in concert with the GAO Cost Guide.

   Evaluation of Management’s Response. Management’s comments are responsive. The
   recommendation is resolved and will be closed upon verification of management’s
   actions.




REPORT NO. IG-08-030                                                                            13
APPENDIXES




                                                                                 APPENDIX A


Scope and Methodology

  We performed this audit from August 2007 through July 2008 in accordance with
  generally accepted government auditing standards. Those standards require that we plan
  and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
  basis for our findings and conclusions based on our audit objectives. We believe that the
  evidence obtained provides a reasonable basis for our findings and conclusions based on
  our audit objectives.

  We performed fieldwork at Johnson Space Center, Kennedy Space Center, Marshall Space
  Flight Center, and NASA Headquarters. We selected five major CxP projects to review:
  Crew Launch Vehicle, Crew Exploration Vehicle, Ground Operations, Commercial Crew
  Cargo Capability, and Mission Operations. We reviewed the information in the “National
  Aeronautics and Space Administration President’s FY 2008 Budget Request” and in the
  CxP projects’ submissions for that document. The five projects’ FY 2008 budget requests
  for direct costs totaled over $2.3 billion. For each of the five projects, we requested copies
  of the budget submissions that project personnel provided to the Constellation Program
  Office. The project offices provided us the direct costs broken out by WBS. We reviewed
  the entire budget for CCCC and, for the other four projects, we selected between two and
  five WBS with the highest dollar value to maximize the amount of the overall budget
  included for review (see Table 3). We also selected WBS that had a mix of labor, travel,
  and procurement costs.

                                Table 3. WBS and Amounts Reviewed
                                            (dollars in millions)
                                          Number of WBS                Amount
                 Project                    Reviewed                  Reviewed
                 CLV/Ares I                      2                    $ 539.9
                 CEV/Orion                       5                      211.3
                                                     a
                 Ground Operations               3                      113.9
                                                   b
                 CCCC                           —                       193.0
                 Mission Operations              3                        20.9
                  Total                         13                    $1,079.0
             a
                 Portions of 3 WBS were reviewed (totaling $113.9).
             b
                 The CCCC budget was not broken out by WBS.




REPORT NO. IG-08-030                                                                               15
                                                                                    APPENDIX A



     We requested detailed support for the cost estimates and reviewed the documentation
     provided by CxP project personnel. For all of the amounts that we reviewed, CxP project
     personnel provided overall summary documentation, such as PowerPoint presentations
     that contained labor, procurement, and travel costs. Because that documentation did not
     provide the level of detail needed to adequately support the estimates, we requested
     additional documentation. CxP project personnel provided additional documentation that
     was sufficiently detailed for $164.4 million of the $1,079 million that we reviewed.

     We interviewed key project, program, and Exploration Systems Mission Directorate
     personnel as well as PA&E and OCFO staff to determine their roles and responsibilities
     in the budget formulation process and whether they were issued budget formulation
     guidance.

     Specifically, we requested data to determine whether
        •   PA&E and OCFO issued and disseminated guidance to appropriate Mission
            Directorates,
        •   the Exploration Systems Mission Directorate issued and disseminated guidance to
            the Constellation Program Office, and
        •   the Constellation Program Office issued and disseminated guidance to its project
            offices.

     We reviewed the following documents relating to budget formulation:
        •   OMB Circular No. A-11, “Preparation, Submission, and Execution of the
            Budget,” June 2006
        •   OMB Capital Programming Guide, Version 2.0, “Supplement to OMB Circular
            A-11, Part 7: Planning, Budgeting, and Acquisition of Capital Assets,” June 2006
        •   Exposure Draft, “Cost Assessment Guide: Best Practices for Estimating and
            Managing Program Costs” (GAO-07-1134SP, July 2007)
        •   “GAO Standards for Internal Control in the Federal Government”
            (GAO/AIMD-00-21.3.1, November 1999)
        •   NASA FMR, Volume 4, “Planning, Programming, Budgeting, and Execution,”
            July 2006
        •   NPR 7120.5C, “NASA Program and Project Management Processes and
            Requirements,” March 22, 2005
        •   NASA’s “Cost Estimating Handbook,” 2004

     Use of Computer-Processed Data. We did not use computer-processed data to perform
     this audit.




16                                                                       REPORT NO. IG-08-030
APPENDIX A



Review of Internal Controls

  We evaluated whether CxP had internal controls in place to ensure its budget request was
  adequately supported. We asked the project managers of the five major CxP projects that
  we reviewed what internal control mechanisms were in place at the project level in
  FY 2006 during the FY 2008 PPBE budget formulation process to ensure that cost
  estimates used to support the budget request were adequately documented. We also
  asked CxP project managers to identify the internal controls in place and provide
  evidence that they were in place and functioning effectively. In addition, we searched
  NASA budget-related guidance to determine whether the guidance identified a system of
  internal controls for preparing and reviewing budgets at the project and program levels
  and whether the system was sufficient to ensure that cost estimates were supported by
  adequate documentation. As discussed in this report, the budget process could be
  improved. Our recommendations, if implemented, will improve the controls over the
  budget formulation process.


Prior Coverage

  During the last 5 years, GAO and the NASA OIG have issued five reports of particular
  relevance to the subject of this report. Unrestricted reports can be accessed over the
  Internet at http://www.gao.gov (GAO) and http://oig.nasa.gov/audits/reports/FY08/
  (NASA).

  Government Accountability Office

  “NASA: Agency Has Taken Steps Toward Making Sound Investment Decisions for
  Ares I But Still Faces Challenging Knowledge Gaps” (GAO-08-51, October 2007)

  “NASA: Long-Term Commitment to and Investment in Space Exploration Program
  Requires More Knowledge” (GAO-06-817R, July 17, 2006)

  “Space Shuttle: Costs for Hubble Servicing Mission and Implementation of Safety
  Recommendations Not Yet Definitive” (GAO-05-34, November 2004)

  “NASA: Lack of Disciplined Cost Estimating Processes Hinders Effective Program
  Management” (GAO-04-642, May 2004)

  National Aeronautics and Space Administration

  “Failures in Cost Estimating and Risk Management Weaknesses in Prior Space Launch
  Initiative” (IG-03-023, September 29, 2003)




REPORT NO. IG-08-030                                                                         17
                      APPENDIX B




     MANAGEMENT COMMENTS




18           REPORT NO. IG-08-030
APPENDIX B




REPORT NO. IG-08-030   19
              APPENDIX B




20   REPORT NO. IG-08-030
APPENDIX B




REPORT NO. IG-08-030   21
                                                                                APPENDIX C




                                                         REPORT DISTRIBUTION

National Aeronautics and Space Administration

     Administrator
     Deputy Administrator
     Chief of Staff
     Associate Administrator for Exploration Systems
        Constellation Program Manager
     Associate Administrator for Program Analysis and Evaluation
     Chief Financial Officer

Non-NASA Organizations and Individuals

     Office of Management and Budget
        Deputy Associate Director, Energy and Science Division
            Branch Chief, Science and Space Programs Branch
     Government Accountability Office
        Director, Defense, State, and NASA Financial Management, Office of Financial
           Management and Assurance
        Director, NASA Issues, Office of Acquisition and Sourcing Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

     Senate Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     Senate Committee on Commerce, Science, and Transportation
        Subcommittee on Space, Aeronautics, and Related Sciences
     Senate Committee on Homeland Security and Governmental Affairs
     House Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     House Committee on Oversight and Government Reform
        Subcommittee on Government Management, Organization, and Procurement
     House Committee on Science and Technology
        Subcommittee on Investigations and Oversight
        Subcommittee on Space and Aeronautics




22                                                                    REPORT NO. IG-08-030
Major Contributors to the Report:
   Daniel Devlin, Director, Financial and Institutional Management Directorate
   Mark Benson, Auditor
   Daniel Birnbaum, Auditor
   Mike Bruns, Auditor
   Tekla Szelong, Auditor
   Bobbie Wells, Auditor
   Elizabeth Shifflett, Report Process Manager




REPORT NO. IG-08-030                                                             23
                                                                               SEPTEMBER 18, 2008
                                                                      REPORT No. IG-08-030




                                                                               OFFICE OF AUDITS

                                                               OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY08 to obtain additional copies of this report, or contact the
Assistant Inspector General for Auditing at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Ms. Jacqueline White, Director of Special
Projects and Quality Assurance, at Jacqueline.White@nasa.gov or call 202-358-0203.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Auditing.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Auditing
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
